LS
|

2311 Douglas Street CA

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B t i tos contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1184

NIKKI BRUNI; JULIE COSENTINO;
CYNTHIA RINALDI; KATHLEEN LASLOW;
AND PATRICK MALLEY,
Petitioners,
v.
CITY OF PITTSBURGH; PITTSBURGH CITY COUNCIL;
MAYOR OF PITTSBURGH,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. 1(h), I certify that the BRIEF FOR
RESPONDENTS IN OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
. prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3895 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 15th day of October, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths,

fe ntsc, | GENERAL NOTARY-State of Nebraska
RENEE J. GOSS Kepee. 0. Liao” Qudraw &. Chih

fe ntsc, | Exp. September 5, 2023
Notary nce. Affiant

 

40230
